<html>
<title> - RUSSIAN INTELLIGENCE ACTIVITIES DIRECTED AT THE DEPARTMENT OF STATE</title>
<body><pre>[Senate Hearing 106-565]
[From the U.S. Government Printing Office]




                                                        S. Hrg. 106-565

   RUSSIAN INTELLIGENCE ACTIVITIES DIRECTED AT THE DEPARTMENT OF STATE

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 10, 2000

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate


                      U.S. GOVERNMENT PRINTING OFFICE
64-654 CC                     WASHINGTON : 2000



                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
CHUCK HAGEL, Nebraska                PAUL S. SARBANES, Maryland
GORDON H. SMITH, Oregon              CHRISTOPHER J. DODD, Connecticut
ROD GRAMS, Minnesota                 JOHN F. KERRY, Massachusetts
SAM BROWNBACK, Kansas                RUSSELL D. FEINGOLD, Wisconsin
CRAIG THOMAS, Wyoming                PAUL D. WELLSTONE, Minnesota
JOHN ASHCROFT, Missouri              BARBARA BOXER, California
BILL FRIST, Tennessee                ROBERT G. TORRICELLI, New Jersey
LINCOLN D. CHAFEE, Rhode Island
                   Stephen E. Biegun, Staff Director
                 Edwin K. Hall, Minority Staff Director

                                  (ii)

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

Carpenter, Hon. David G., Assistant Secretary of State for 
  Diplomatic Security, Department of State.......................     2
    Prepared statement of........................................     7

                                 (iii)

  

 
  RUSSIAN INTELLIGENCE ACTIVITIES DIRECTED AT THE DEPARTMENT OF STATE

                              ----------                              


                      THURSDAY, FEBRUARY 10, 2000

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:37 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Rod Grams 
presiding.
    Present: Senator Grams.
    Senator Grams. I would like to bring this hearing to order.
    Thank you very much for coming.
    Mr. Carpenter, thank you for coming and testifying here 
today.
    Now, in just a brief opening statement, I just wanted to 
say, you know, first and foremost, that we have worked closely 
together during the last year to secure an Embassy Construction 
and Counter-Terrorism Act to improve the security of our 
diplomatic facilities abroad, and I also hope that we can 
continue to work closely together now to tighten security at 
the State Department itself.
    I think we can all agree that given that we have a security 
system that has been porous to the extent that the Russians can 
rip out a piece of molding in the State Department on the very 
floor that contains the Secretary of State's offices and to 
replace it with a similar one that contained a bug, I think we 
have got a major problem.
    I do not want to imply that the Bureau of Diplomatic 
Security [DS] has not tried to impose stricter security 
measures. You have, but I believe that you have been fought 
every step of the way by the diplomats and policymakers.
    I am concerned that the State Department has become a soft 
target for foreign intelligence services, because of a lack of 
security consciousness in the State Department culture.
    For example, controlling access at the State Department is 
a contentious issue. Diplomatic Security's first attempt to 
restrict access to the State Department's corridors in 1998 met 
with failure.
    The mandate for all visitors to be escorted at all times 
was rescinded 6 days after it was issued due to complaints from 
senior Department officials at the State Department.
    In addition to creating the opportunities for espionage, 
the lack of access control makes it difficult to determine when 
the Russian listening device was installed and by whom. There 
is speculation that the Russians planted the bug in the 
conference room before the access control policy was reinstated 
9 months later. Now, I hope we can clear up some of that 
speculation as well today.
    Another issue in question is the question of access to 
sensitive systems by individuals who do not have appropriate 
clearance.
    Now, according to a report by the GAO, dozens of foreign 
citizens, including British, Chinese, Pakistanis and 
Ethiopians, were given access to sensitive computer systems at 
the Federal Aviation Administration without undergoing security 
checks. Comparable concerns have arisen regarding DOE's 
Stockpile Stewardship Program.
    Now, I am concerned that similar security lapses could have 
occurred at the State Department. And I am particularly 
disturbed that Secretary Albright, in response to my questions 
on Tuesday, indicated that she believed all foreign citizens 
who work at the State Department, including all contractors, 
have to go through background checks.
    Now, you and I know that that is not the case. Commercial 
contractors are given unsupervised access during regular 
business hours and do not all have security clearances. In 
fact, clearances are not required for contractors to perform 
sensitive computer hardware or software work in the building.
    And I am sure you share my concerns that DS is not 
necessarily informed of the type and location of work that is 
being done by these contractors.
    Now, in addition to the top-to-bottom security review that 
you are doing right now for the Secretary, I want to make sure 
that she is being adequately briefed in this area, because this 
should be attended to, and it should be attended to at the 
highest levels. We cannot safeguard our national interests, if 
we cannot safeguard our Nation's secrets.
    So, again, I want to thank you very much, Mr. Carpenter, 
for coming and your willingness to testify today. So if you 
have an opening statement, I would like to take the opportunity 
to hear it.

 STATEMENT OF HON. DAVID G. CARPENTER, ASSISTANT SECRETARY OF 
       STATE FOR DIPLOMATIC SECURITY, DEPARTMENT OF STATE

    Mr. Carpenter. I do, Mr. Chairman. And I would like to 
thank you for the opportunity to appear before this committee 
today and for the committee's past and continuing interest in 
and support for the counterintelligence and security programs 
at the Department of State.
    As you no doubt understand, the Department's operational 
counterintelligence responsibilities are vested within the 
Bureau of Diplomatic Security.
    The responsibility for protecting the Department of State 
facilities in the United States and the facilities and 
personnel of nearly all U.S. Government agencies assigned 
abroad also is assigned to our Bureau.
    We have a number of programs designed to counter an array 
of security challenges presented by elements ranging from 
common criminals to terrorists and spies.
    In the context of counterintelligence, these programs 
include safeguarding classified and national security 
information, security investigations, security awareness 
programs, and the conduct and coordination of counter-espionage 
and counterintelligence investigations.
    We closely coordinate all of our security and 
counterintelligence activities with our colleagues within the 
Department and the law enforcement and intelligence 
communities.
    On August 11, 1998, 4 days after the bombings of our 
Embassies in Africa, my recess appointment was confirmed by the 
U.S. Senate. Necessarily, my immediate focus and nearly all of 
my attention was on the bombings and our efforts to prevent 
further similar tragedies.
    Indeed, in those first few months following the bombings, 
most of the Bureau's resources were focused in one way or 
another on terrorism matters.
    As the weeks and months progressed and the press of daily 
business resumed its normal, albeit all consuming, course, 
requiring DS resources for other responsibilities such as 
dignitary protection, criminal investigations, physical 
security, technical security, and, yes, counterintelligence, I 
began to see firsthand just how superb the Bureau's employees 
perform.
    I also saw firsthand just how much the State Department's 
budget had been cut and, to my regret, how hard those budget 
and personnel cuts had hit Diplomatic Security and its ability 
to provide the type of protection I believe to be required for 
the Department's facilities and employees.
    I found that DS had people in all areas of its 
responsibilities who, in my experience, were second to none in 
other similar agencies who had--but who had precious little 
support in terms of tools to do their jobs. That is to say, to 
use a sports analogy, we had no bench strength.
    Bureau employees pointed out to me that, following the fall 
of the Soviet Union, DS was authorized to hire only a handful 
of agents, engineers, and Civil Service security personnel.
    The budget cuts were so severe that DS imposed a 5-percent 
reduction in the worldwide guard program.
    I was told that a number of positions had been abolished, 
and rules and regulations concerning security were loosened to 
the point that holding employees accountable for serious 
security issues became difficult at best.
    I was told that during those years, budget and personnel 
cuts had essentially permitted the Bureau to conduct properly 
only the most essential services.
    We had reached the point that if there were a major peace 
conference in the U.S. requiring DS to conduct large-scale 
protection, numerous operations, including counterintelligence, 
would be virtually shut down to support it. In some respects, 
this type of scenario still continues to this day.
    Among the offices affected during the period of cuts was 
our Office of Counterintelligence. The number of positions was 
reduced from 41 to 26. The funding for the program was cut from 
$225,000 to $65,000.
    Our technical countermeasures programs suffered a similar 
fate, and limited funding forced the Bureau to decide to fund 
other programs rather than to invest in upgrading its 
countermeasures equipment within main State.
    In essence, the Department appeared to have been reacting 
to both fiscal constraints and a general sense after the fall 
of communism that the world was a better place and that the 
cold war had ended.
    I was not with the Department during those years, but I 
believe that the Bureau's priorities reflected this thinking.
    Since 1997, the Bureau's hiring has picked up considerably. 
And while it appeared that we were making strides in restaffing 
DS to the point of making it ready to meet its challenges, the 
bombings occurred in 1998. Nearly all of the new positions 
acquired since that time have been directed at overseas 
staffing and with antiterrorism in mind.
    Other programs such as counterintelligence, dignitary 
protection and domestic facility security continue to be 
largely understaffed.
    But I want to make it clear that the President and the 
Secretary's budget submission before you is moving to correct 
this inadequacy.
    I have given you a very general view of where DS has been 
in terms of resources over the past few years. And with that as 
a general backdrop, I will take a few minutes to discuss the 
reason for being here today, the Russian bugging of the 
seventh-floor conference room.
    Major security incidents generally are not spontaneous. 
They take planning. Planning involves time, which perpetrators 
use to study vulnerabilities, security defenses, and to learn 
anything that will help them in their efforts.
    This is true of common burglars who case a home, terrorists 
who blow up buildings, kidnappers who abduct people, and 
intelligence officers who operate against the U.S. Government.
    I have told you of how, as a newcomer to the Department, I 
quickly learned that our security programs had been weakened in 
the early post-cold-war years. It takes very little imagination 
for one to surmise that the Russian intelligence service took 
advantage of our posture.
    How relaxed were we? Let me first talk about the access to 
the Department.
    In 1982, the Department established a required escort 
policy for 31 countries.
    As the cold war was won, that number was whittled down so 
that in 1992, 10 years later, the remaining three countries 
were taken off the list.
    One of my first comments to my senior staff after assuming 
my Assistant Secretary's duties was to question this lack of an 
escort policy. During my Secret Service career, I had been in 
many buildings containing sensitive information and had never 
seen one without some reasonable escort policy for non-cleared 
visitors.
    In keeping with Secretary Albright's instructions to me to 
thoroughly review and improve where necessary all aspects of 
the Department's security program, I had my senior staff give 
me an overview of this escort policy as well as their 
perception of the general attitude toward security at State.
    Their comments confirmed my initial uneasiness about the 
lack of an effective escort policy and solidified my resolve 
that we needed to implement more stringent escort procedures.
    On November 17, 1998, we issued a new policy requiring for 
the first time in the history of the Department of State that 
all visitors, with the exception of U.S. Government agency 
personnel with photo identification, be escorted at all times 
when in the Department of State.
    Literally, within minutes of the policy's announcement, my 
office received word that there was concern that the policy had 
not been vetted or cleared properly throughout the Department. 
We rescinded the policy in order to do the necessary spade 
work.
    Completely separate from the escort issue, but running 
relatively parallel to the escort policy review, our 
counterintelligence division was engaged in a sensitive and 
classified effort, which gave us an additional concern 
regarding access to the Department by uncleared persons--
uncleared and unescorted persons.
    With this additional information in hand, we decided to 
renew our efforts to implement the escort policy.
    Our counterintelligence agents briefed all the executive 
directors of the various Department Bureaus and the 
Undersecretary for Management, and there was universal 
agreement that a required escort policy would have to be 
established.
    On August 6, 1999, the escort policy was implemented. Do we 
wish that it had been implemented earlier? Certainly. But I 
cannot undo the problems caused by this past mistake. We can 
only move forward and not make similar errors in the future.
    I have attached to this statement a copy of the 
Department's current policy together with related information.
    As you know, several months ago, the FBI detected Russian 
Intelligence Officer Stanislav Gusev on the street near the 
State Department. His behavior appeared unusual, and a plan was 
implemented to surveil him.
    It was noted that the Russian visited the immediate 
vicinity of the State Department twice or more per week, walked 
the streets, and fussed about in his car.
    Sensitive technical countermeasures later revealed the 
presence of a listening device located in the Oceans and 
International Environmental Scientific Affairs', OES, 
conference room.
    Further investigation revealed that this was, indeed, a 
Russian intelligence operation directed against the Department. 
Confirmation in hand, agents of DS and the FBI arrested Gusev 
on December 8, 1999. He was subsequently asked to leave the 
country.
    I have attached to this statement an unclassified 
chronology of the case for your use. If the committee needs the 
specific dates showing the developments in this case, we can 
give you the classified chronology.
    The FBI, assisted by DS, is leading the investigation into 
how the device was placed in the OES conference room, which we 
believe was picked as a target of opportunity.
    Additionally, we are in the process of jointly conducting a 
damage assessment.
    In response to many questions we have had regarding the 
device, I must refer you to the FBI regarding the 
sophistication of the device itself, but I can tell you that it 
was a very cleverly installed and concealed device.
    Also, while I would be pleased to answer any questions that 
the committee may have concerning the investigation leading up 
to the discovery of the device and subsequent arrest of Mr. 
Gusev, I must refer any questions concerning the continuing 
aspects of this case to the FBI.
    The escort policy that I have referred to is now in place 
and, though not perfect, it has improved our access procedures.
    The policy does require more effort on the part of the 
Department's non-security personnel but, to date, we have had 
excellent cooperation in its implementation.
    We are also looking to improve our security in other 
respects and are currently talking in-house about what 
resources we would need if we are to upgrade the Department's 
access control systems and to install enhanced access control 
devices in the most sensitive areas of the Department.
    We all need to beef up our counterintelligence division. 
That division is responsible for protecting the Department's 
and tenant agencies' most sensitive information and 
communications at over 260 facilities in the United States and 
abroad.
    Unfortunately, it is still underfunded. This year's 
operational budget is $113,000, barely half of what it was at 
its peak.
    Further, the division remains woefully understaffed; and 
far too often I have to task them with other duties, usually 
dignitary protection, totally unrelated to their 
counterintelligence mission. This cannot continue.
    Again, I must state that the current budget submission is a 
welcome improvement to that problem.
    We have learned from construction of the new embassy in 
Moscow, which is due to open soon, how resource intensive it is 
for our counterintelligence efforts to be successful in the 
most aggressive environments.
    Now, we have similar projects planned for other countries 
who are known to have ongoing, aggressive programs aimed at 
gaining intelligence information via technical or human means.
    We simply must find a way to give that division the 
resources it needs to do its job. And we must find a way of 
doing this without taking resources from our domestic life 
safety programs.
    These programs are also underfunded and understaffed, and 
we cannot take risks with the lives of traveling dignitaries or 
with the lives of my employees who are sworn to protect them.
    In other words, we must continue building the missing bench 
strength that I referred to earlier for counterintelligence, 
and other important programs, a process we have already begun 
in this year's budget.
    Finally, let me say a few words about inter-agency 
cooperation. While the down side of this affair is obviously in 
terms of potential compromises of information, there are a 
couple of positives that came out of it.
    This clearly was a U.S. counterintelligence success story, 
and the Secretary has acknowledged the superb investigative 
work of the FBI throughout this operation.
    In her view, the successful resolution of this case is a 
classic example of what can be accomplished when law 
enforcement agencies cooperate with each other.
    I want to add my own praise for the FBI's work in this 
matter and want to assure the committee that the close 
cooperation in this case will continue and that Neil Gallagher, 
Assistant Director for National Security Division, and others 
at the FBI continue to be in frequent touch with me on this and 
other matters.
    I am pleased to report to you that the sort of close 
cooperation exhibited in this case is reflective of our 
cooperation on other sensitive investigative matters.
    A second benefit of this case, coming on the heels of other 
widely publicized espionage cases, is that it puts to rest in 
the Department the notion that since the cold war is over, we 
can let down our guard against espionage.
    While most acknowledge that so-called economic espionage 
flourishes, this case is proof positive that the more 
traditional targets are still ripe and of interest to foreign 
intelligence services.
    I am certain that my colleagues in the intelligence 
community would agree that the boldness of this operation 
illustrates that the technical threat faced here in the United 
States is real and cannot be ignored.
    Given the resources, we intend to reinvigorate our own 
counterintelligence awareness programs and urge the rest of the 
government to follow suit.
    In summation, I know that we have much work to do in the 
counterintelligence and security arenas.
    The major challenges for us are twofold. First, we must 
make the case for, obtain, and manage additional resources to 
improve our counterintelligence program across the board.
    The President and the Secretary have taken a positive step 
in this direction with the budget that is currently before you.
    Second, once we obtain the necessary resources and put them 
in place, we have to guard vigilantly against reallocating them 
to other areas.
    DS must have, obtain and retain sufficient resources for 
its broad range of security programs, and break the cycle of 
its responding to the most recent crisis at the expense of 
other programs.
    Mr. Chairman, thank you for your interest. And I would be 
happy to answer any questions you or the committee may have.
    [The prepared statement of Mr. Carpenter follows:]

             Prepared Statement of Hon. David G. Carpenter

                              introduction
    Mr. Chairman and Members of the Committee:
    I would like to thank you for the opportunity to appear before the 
committee today and for the committee's past and continuing interest in 
and support for the counterintelligence and security programs of the 
Department of State. As you no doubt understand, the Department's 
operational counterintelligence responsibilities are vested within the 
Bureau of Diplomatic Security. The responsibility for protecting 
Department of State facilities in the U.S. and the facilities and 
personnel of nearly all U.S. Government agencies assigned abroad also 
is assigned to our Bureau. We have a number of programs designed to 
counter an array of security challenges presented by elements ranging 
from common criminals to terrorists and spies. In the context of 
counterintelligence, these programs include safeguarding classified and 
national security information, security investigations, security 
awareness programs and the conduct and coordination of counterespionage 
and counterintelligence investigations. We closely coordinate all of 
our security and counterintelligence activities with our colleagues 
within the Department and the law enforcement and intelligence 
communities.
                            the state of ds
    On August 11, 1998, four days after the bombings of our embassies 
in Africa, my recess appointment was confirmed by the U.S. Senate. 
Necessarily, my immediate focus and nearly all of my attention was on 
the bombings and our efforts to prevent further similar tragedies. 
Indeed, in those first few months following the bombings, most of the 
Bureau's resources were focused in one way or another on terrorism 
matters. As the weeks and months progressed and the press of daily 
business resumed its normal, albeit all consuming, course requiring DS 
resources for other responsibilities such as dignitary protection, 
criminal investigations, physical security, technical security, and, 
yes, counterintelligence, I began to see first hand just how superb the 
Bureau's employees perform. I also saw first hand just how much the 
State Department's budget had been cut and, to my regret, how hard 
those budget and personnel cuts had hit DS and its ability to provide 
the type of protection I believe to be required for the Department's 
facilities and employees. I found that DS had people in all areas of 
its responsibilities who, in my experience, were second to none in 
other similar agencies but who had precious little support in terms of 
tools to do their jobs. That is to say, to use a sports analogy, we had 
no bench strength. Bureau employees pointed out to me that, following 
the fall of the Soviet Union, DS was authorized to hire only a handful 
of agents, engineers, and civil service security personnel. The budget 
cuts were so severe that DS imposed a 5% reduction in the worldwide 
guard program. I was told that a number of positions had been 
abolished, and rules and regulations concerning security were loosened 
to the point that holding employees accountable for serious security 
issues became difficult at best. I was told that during those years, 
budget and personnel cuts had essentially permitted the Bureau to 
conduct properly only the most essential services. We had reached the 
point that if there were a major peace conference in the U.S., 
requiring DS to conduct large-scale protection, numerous operations, 
including counterintelligence, would be virtually shut down to support 
it. In some respects, this type of scenario still continues to this 
day.
    Among the offices affected during that period of cuts was our 
Office of Counterintelligence. The number of positions was reduced from 
41 to 26, and funding for the program was cut from $225,000 to $65,000. 
Our technical countermeasures programs suffered a similar fate and 
limited funding forced the Bureau to decide to fund other programs 
rather than to invest in upgrading its countermeasures equipment within 
Main State. In essence, the Department appeared to have been reacting 
to both fiscal constraints and a general sense after the fall of 
communism that the world was a better place and that the ``cold war had 
ended.'' I was not with the Department during those years, but I 
believe that the Bureau's priorities reflected this thinking.
    Since 1997, the Bureau's hiring has picked up considerably, and 
while it appeared that we were making strides in restaffing DS to the 
point of making it ready to meet its challenges, the bombings occurred 
in 1998. Nearly all of the new positions acquired since that time have 
been directed at overseas staffing and with antiterrorism in mind. 
Other programs such as counterintelligence, dignitary protection, and 
domestic facility security continue to be largely understaffed and 
underfunded.
                  the ``bugging'' of a conference room
    I've given you a very general view of where DS has been in terms of 
resources over the past few years and with that as a general backdrop, 
I'll take a few minutes to discuss the reason for my being here today--
the Russian ``bugging'' of the 7th floor conference room.
    Major security incidents generally are not spontaneous--they take 
planning. Planning involves time, time which the perpetrators use to 
study vulnerabilities, security defenses, and to learn anything that 
will help them in their efforts. This is true of common burglars who 
``case'' a home, terrorists who blow up buildings, kidnappers who 
abduct people, and intelligence officers who operate against the U.S. 
Government. I've told you of how, as a newcomer to the Department, I 
quickly learned that our security programs had been weakened in the 
early post cold war years. It takes very little imagination for one to 
surmise that the Russian intelligence service took advantage of our 
posture.
    How relaxed were we? Let me first talk about access to the 
Department. In 1982 the Department established a required escort policy 
for 31 countries. As the Cold War was won, that number was whittled 
down so that in 1992 the remaining three countries were taken off the 
list. One of my first comments to my senior staff after assuming 
Assistant Secretary duties was to question this lack of an escort 
policy. During my Secret Service career, I had been in many buildings 
containing sensitive information and had never seen one without some 
reasonable escort policy for non-cleared visitors. In keeping with 
Secretary Albright's instruction to me to thoroughly review and 
improve, where necessary, all aspects of the Department's security 
program, I had my senior staff give me an overview of the escort policy 
as well as their perception of the general attitude towards security in 
State. Their comments confirmed my initial uneasiness about the lack of 
an effective escort policy and solidified my resolve that we needed to 
implement more stringent escort procedures. On November 17, 1998, we 
issued a new policy requiring for the first time in the history of the 
Department of State that all visitors, with the exception of U.S. 
Government agency personnel with photo identification, be escorted at 
all times. Literally within minutes of the policy's announcement, my 
office received word that there was concern that the policy had not 
been vetted or cleared properly through the Department. We rescinded 
the policy in order to do the necessary spade work.
    Completely separate from the escort issue, but running relatively 
parallel to the escort policy review, our counterintelligence division 
was engaged in a sensitive and classified effort which gave us 
additional concern regarding access to the Department by uncleared 
persons. With this additional information in hand, we decided to renew 
our efforts to implement an escort policy. Our counterintelligence 
agents briefed all of the executive directors of the various Department 
Bureaus and the Undersecretary for Management, and there was universal 
agreement that a required escort policy would have to be established. 
On August 6, 1999, the escort policy was implemented. Do we wish that 
it had been implemented earlier? Certainly, but we can't undo the 
problems caused by past mistakes. We can only move forward and not make 
similar errors in the future. I have attached, to this statement a copy 
of the Department's current policy together with related information.
    As you know, several months ago, the FBI detected Russian 
Intelligence Officer Stanislav Gusev on the street near the State 
Department. His behavior appeared unusual, and a plan was implemented 
to surveil him. It was noted that the Russian visited the immediate 
vicinity of the State Department twice or more per week, walked the 
streets, and fussed about in his car. Sensitive technical 
countermeasures later revealed the presence of a listening device 
located in the Oceans and International Environmental Scientific 
Affairs' (OES) conference room. Further investigation revealed that 
this was indeed a Russian intelligence operation directed against the 
Department. Confirmation in hand, agents of DS and the FBI arrested 
Gusev on December 8, 1999, and he was subsequently asked to leave the 
country. I have attached to this statement an unclassified chronology 
of the case for your use. If the committee needs the specific dates 
showing the developments in the case, we can give you the classified 
chronology.
    The FBI, assisted by DS, is leading the investigation into how the 
device was placed in the OES conference room, which we believe was 
picked as a target of opportunity. Additionally, we are in the process 
of jointly conducting a damage assessment. In response to the many 
questions we've had regarding the device, I must refer you to the FBI 
regarding the sophistication of the device itself, but I can tell you 
that it was very cleverly installed and concealed. Also, while I'd be 
pleased to answer any questions that the committee may have concerning 
the investigation leading up to the discovery of the device and 
subsequent arrest of Mr. Gusev, I must refer any questions concerning 
the continuing aspects of the case to the FBI.
                     the future--enhanced vigilance
    The escort policy that I've referred to is now in place, and, 
though not perfect, it has improved our access control procedures. The 
policy does require more effort on the part of the Department's non-
security personnel, but, to date, we've had excellent cooperation in 
its implementation. We are also looking to improve our security in 
other respects, and are currently talking in-house about what resources 
we would need if we are to upgrade the Department's access control 
systems and to install enhanced access control devices in the most 
sensitive areas of the Department.
    We also need to beef up our counterintelligence division. That 
division is responsible for protecting the Department's and tenant 
agencies' most sensitive information and communications at over 260 
facilities in the United States and abroad. Unfortunately, it is still 
underfunded. This year's operational budget is $113,000, barely half of 
what it was at its peak. Further, the division remains woefully 
understaffed, and far too often I have to task them with other duties--
usually dignitary protection--totally unrelated to their 
counterintelligence mission. This cannot continue. We have learned from 
construction of the new embassy in Moscow, which is due to open soon, 
how resource intensive it is for our counterintelligence efforts to be 
successful in the most aggressive environments. Now we have similar 
projects either planned for or started in other countries with ongoing, 
aggressive efforts to steal information via technical or human means. 
We simply must find a way to give that division the resources it needs 
to do its job. And we must find a way of doing this without taking 
resources from our domestic life safety programs. Those programs are 
also underfunded and understaffed, and we cannot take risks with the 
lives of travelling dignitaries nor with the lives of my employees who 
are sworn to protect them. In other words, we must continue to build 
the missing bench strength that I referred to earlier for 
counterintelligence and our other important programs, a process we have 
already begun in this year's budget.
    Finally, let me just say a few words about inter-agency 
cooperation. While the down side of this affair is obvious in terms of 
potential compromise of information, there were a couple of positives 
coming out of it. This clearly was a U.S. counterintelligence success 
story, and the Secretary has acknowledged the superb investigative work 
of the FBI throughout this operation. In her view, the successful 
resolution of this case is a classic example of what can be 
accomplished when law enforcement agencies cooperate with each other. I 
want to add my own praise for the FBI's work in this matter and want to 
assure the committee that the close cooperation in this case will 
continue and that Neil Gallagher, Assistant Director of the National 
Security Division, and others at the FBI continue to be in frequent 
touch with me on this and other matters. I am pleased to report to you 
that the sort of close cooperation exhibited in this case is reflective 
of our cooperation on other, sensitive investigative matters.
    A secondary benefit is that this case, coming on the heels of other 
widely publicized espionage cases, puts to rest in the Department the 
notion that since the Cold War is over we can let down our guard 
against espionage. While most acknowledge that so-called economic 
espionage flourishes, this case is proof positive that the more 
traditional targets are still ripe and of interest to foreign 
intelligence services. I'm certain that my colleagues in the 
intelligence community would agree that the boldness of this operation 
illustrates that the technical threat faced here in the United States 
is real and cannot be ignored. Given the resources, we intend to 
reinvigorate our own counterintelligence awareness programs and urge 
the rest of the government to follow suit.
    In summation, we know that we have much work to do in the 
counterintelligence and security arenas. The major challenge for us is 
twofold: First, we must make the case for, obtain, and manage 
additional resources to improve our counterintelligence program across 
the board. Second, once we obtain the necessary resources and put them 
in place, we have to guard vigilantly against reallocating them to 
other areas. In other words, DS must obtain and retain sufficient 
resources for its broad range of security programs and break the cycle 
of its responding to the most recent crisis at the expense of its other 
programs.
    Mr. Chairman, thank you for your interest. I'd be happy to answer 
any questions you or the committee may have.

    [Attachments]

                             [UNCLASSIFIED]

        Russian ``Bugging'' of State Department Case Chronology

  <bullet> Gusev arrives Washington, D.C. March 1999.
  <bullet> The FBI informed the Department's Bureau of Diplomatic 
        Security of concern that Gusev had been making regular and 
        suspicious appearances in the vicinity of the US State 
        Department.
  <bullet> After observing the Russian during the summer, specifically 
        his activities in terms of parking and positioning of his car, 
        peculiarities with respect to his walking patterns, and his 
        general behavior while in the vicinity of the Department, 
        agreement was reached that he may have been conducting some 
        sort of technical operation.
  <bullet> Investigators eventually determined that he was manipulating 
        some type of technical device in his shirt pocket.
  <bullet> Subsequently, DS and FBI agents met and planned a course of 
        action which included a survey of the Department to ascertain 
        possible target offices of any technical attack against the 
        building.
  <bullet> Eventually, DS and FBI technical operations located a 
        signal, which apparently was transmitting from a conference 
        room on the 7th floor in the Bureau of Oceans, Environment, and 
        Science and Technology.
  <bullet> On December 8, the Russian Intelligence Officer, Stanislav 
        Gusev, was arrested while in the act of receiving classified US 
        Government information transmitted by the device implanted in 
        the conference room. He was subsequently released to the 
        Russian Embassy and expelled from the U.S.
  <bullet> Investigation continues into other aspects of this case, 
        including how the device was implanted. Our security officials 
        are also conducting a damage assessment as to what, if any, 
        classified or sensitive information may have been lost.
  <bullet> To date, approximately 300 people have been interviewed by 
        DS and the FBI. There are a number of investigative leads which 
        are being pursued.

                                 ______
                                 

                        Escort Policy Materials

    1. Department Notice dated November 17, 1998, New Visitor Escort 
Requirements
    2. Department Notice dated August 6, 1999, New Visitor Escort 
Requirements
    3. Notice to the Press, dated November 18, 1999, Modifications to 
State Department Access Policy
    4. Two 1992 Memoranda Regarding Countries on Required Escourt List

                        U.S. DEPARTMENT OF STATE

                           Department Notice

All Employees:  State  <bullet>  AID  <bullet>  USIA  <bullet>  ACDA  
November 17, 1998
Office of Origin:  DS/CIS/DO
                    new visitor escort requirements
    The Bureau of Diplomatic Security (DS), with the approval of the 
Under Secretary of Management, is adopting new access control policies 
for persons visiting the Department of State (Main State) and other DOS 
facilities at which classified information is processed or stored. All 
visitors, with the exception of active U.S. Government (USG) agency 
personnel who display proper photo identification, shall be escorted at 
all times. USG employees shall continue to be telephonically cleared 
into facilities prior to admittance. This change will not affect DOS 
facilities that have more stringent visitor escort policies. The 
National Foreign Affairs Training Center is also exempt. This policy 
shall take effect on November 23, 1998.
Background
    Many employees have expressed security concerns following the 
recent bombings in Africa and the continued threat of both 
international and domestic terrorism. Additionally, within the past 
twelve months there have been at least two serious security incidents 
within the Department. One involved the Secretary's suite and resulted 
in extensive media coverage. These incidents resulted in the 
unprecedented Town Meeting hosted by Ambassador Thomas Pickering, Under 
Secretary Bonnie Cohen and senior DS representatives. The message was 
clear. We must better protect our employees and the sensitive 
information entrusted to the Department.
    Surveys were conducted at other USG agencies handling sensitive and 
classified materials here in the United States and the Ministries of 
other countries. Based on these surveys and the requirement to better 
protect our employees and information, the Department has decided to 
adopt an escort policy for non-USG employee visitors to DOS facilities. 
Other physical security enhancements will soon be implemented at Main 
State.
Who Can Escort?
    Escorts must be DOS or contract employees who possess a security 
clearance. Personnel who have been issued one of the following 
permanent DOS building passes may escort:

          I. A blue border.
          2. A gray border with a red diagonal stripe.
          3. A red border with a red diagonal stripe.
Visitor Procedures:
    Visitors shall identify themselves to the receptionist or Uniformed 
Protection Officer (UPO) and provide approved photo identification. 
They shall identify the person or office they wish to visit. The 
receptionist or UPO will telephonically notify the person/office to 
inform them of the visitor's identity. When authorized access by a 
cleared DOS or contract employee, the visitor shall be signed in.
    Visitors producing current USG employee identification will be 
issued a visitor pass and authorized access without escort. Access 
procedures for retired DOS employees are unchanged. Retirees from other 
USG agencies must be escorted.
    Non-USG visitors will be issued a pass that requires an escort. 
These visitors shall await the arrival of an authorized escort at which 
time the visitor will be allowed to enter the facility.
Pre-Admittance Authorization:
    Employees/contractors having escort authority may obtain a Pre-
Admittance Authorization Form (DS-1867) from the C Street entrance 
receptionist. The completed form should be returned to the 
receptionist. When the visitor arrives, the receptionist will notify 
the receiving office of the arrival and request an escort for non-USG 
visitors. USG employees shall be granted access.
Escort Responsibilities:
    Escorts shall report to the receptionist or UPO and identify 
themselves. Escorts are responsible for the visitor at all times and at 
no time shall the visitor be left alone or unescorted. Escorts shall 
ensure the visitor properly wears the visitor pass at all times.
    Upon completion of the visit, the office shall provide an escort to 
accompany the visitor out of the facility or to the next location of 
business. The succeeding office then becomes responsible for visitor 
escort. The office at the site of the visitors final appointment is 
responsible for escorting the visitor to the facility exit and that the 
visitors pass is turned into the receptionist or UPO.
    Construction or repair personnel must also follow the same 
procedures as outlined for visitors. At Main State, all construction 
and repair personnel shall enter at the Service Entrance. Remember that 
these persons are NOT cleared and MUST be escorted at alltimes.
Cleaning Personnel:
    There is no change to the policies of cleaning personnel access. 
Employees are again reminded, with few exceptions, these persons do not 
have a security clearance and must be escorted at all times while in 
office space.
Conclusion:
    The Department understands that some inconvenience may arise due to 
these new procedures. However, based on the surveys conducted, we 
believe the inconvenience will be minimal. The responsibilities to 
provide a safe environment for our employees and guests and to 
safeguard sensitive information outweigh the inconvenience. These 
escort procedures are more consistent with the policies long in place 
at other Intelligence Community facilities and many other federal 
agencies.
    This notice supercedes any conflict between this publication and 
the Building Pass Identification Card Handbook. Necessary FAM changes 
shall be made to conform to these new policies. Any questions should be 
directed to the DS Special Events Section. Your cooperation in making 
this important program successful is greatly appreciated.
    Escorts may usher no more than ten visitors at a time. Additional 
escorts shall be provided by the sponsoring office for groups exceeding 
ten. Large group access should be coordinated with the Special Events 
Section of the DS Office of Domestic Operations, Security Support 
Division at 647-5925 or 5305.
VIP Visitors:
    There is no change to the current policy for VIP visitors. VIP 
visitors are defined as Cabinet level or foreign equivalents and 
Ambassadors. Other exceptions are considered on a case by case basis. 
Escorts shall normally meet the VIP at the C Street Diplomatic 
Entrance. VIP's are not issued a visitor pass and shall be provided 
with a courtesy escort at all times by the office to be visited. VIP 
escorts are required to wear their DOS building pass and a DS 
authorized lapel pin that signifies they are escorting a VIP. All VIP 
requests must be coordinated through the DS/SSD Special Events Section 
as soon as it is known the visit is to occur. DS lapel pins may be 
obtained from the Special Events Section.
American and Foreign Press:
    There is no change to the current policy. However, employees are 
reminded that neither foreign nor domestic press representatives have 
unrestricted access to the Department. Press representatives are 
restricted to the press office and briefing room, the public lobbies, 
cafeteria and basement garage. They are required to have scheduled 
appointments and must be escorted in order to be in any other part of 
the building. If a press representative arrives at an office uninvited 
or without escort, employees should advise DS/SSD Uniformed Branch at 
647-0099 and the PA Office of Press Relations (PA/PR) at 647-2492.
Delivery Personnel:
    Delivery personnel must follow the same procedures as outlined for 
visitors and shall be escorted at all times. At Main State, all 
deliveries shall be made at either the Service Entrance or the Loading 
Dock located on the 21st Street side of the building.

                                 ______
                                 

                        U.S. DEPARTMENT OF STATE

                           Department Notice

All Employees:  State  <bullet>  AID  <bullet>  USIA  <bullet>  ACDA  
August 6, 1999
Office of Origin:  DS/CIS/DO
                     access control for main state
    The Department is Implementing upgraded access control procedures 
for Main State. This policy, in concert with physical security 
enhancements, will result in a safer and more secure facility. 
Beginning August 23, 1999, all visitors to Main State shall require 
escort at all times. The only exception to this policy are current U.S. 
Government personnel and DOS retirees who display proper photo 
identification.
Who Can Authorize Visitor Access/Escort?
  <bullet> DOS or contract employees who possess a security clearance 
        and who have a permanent DOS building pass with either a blue 
        border or a gray border with a red diagonal stripe can 
        authorize visitor access and provide escort. Red border 
        building passes (no security clearance) with the red diagonal 
        stripe are no longer authorized to sign-in or escort visitors.
Visitor Procedures
  <bullet> Visitors will identify themselves to the receptionist or 
        Uniformed Protection Officer (UPO), provide photo 
        identification, and identify the person or office they wish to 
        visit. The receptionist or UPO will notify the person/office to 
        inform them of the visitor's identity. Once authorized access 
        by a cleared DOS or contract employee, the visitor shall be 
        signed in and issued a visitor building pass.
  <bullet> Visitors displaying current USG identification and retired 
        DOS employees will be issued a visitor pass and allowed 
        unescorted access. Retirees from other USG agencies may use 
        their official retirement credential for identification, but 
        will require escort.
  <bullet> Visitor pre-admittance authorization forms (DS-1867) may be 
        completed in advance and are available from the C Street 
        entrance receptionist.
Escort Responsibilities
  <bullet> Escort personnel are responsible for meeting visitors and 
        ensuring visitors have been issued the ``Escort Required'' 
        building pass. Cleared escorts are also responsible to ensure 
        that visitor(s) are under escort at all times and are granted 
        access to authorized areas only while in the building.
  <bullet> Escorts will identify themselves to the receptionist or UPO 
        who shall identify the visitor(s). If a visitor is escorted to 
        a second office, the succeeding office is then responsible for 
        visitor escort. The office of the visitor's final appointment 
        is responsible for escorting the visitor to the exit and 
        returning the visitor's pass to the UPO.
  <bullet> Escorts may accompany no more than 10 visitors at a time. 
        Additional escorts are required for groups exceeding 10. Large 
        group access should be coordinated with DS' Office of Domestic 
        Operations (DS/CIS/DO) at 647-5925 or 647-5305.
Special Events & VIPs
  <bullet> Escort requirements for conferences and special events, 
        members of Congress, the Cabinet, their foreign equivalents, 
        ambassadors, and other VIP visitors remain unchanged. All 
        visitors are required to undergo security screening unless 
        exempted by DS/CIS/DO.
Members of the Press
  <bullet> There is no change to the current policy. Employees are 
        reminded that press representatives are restricted to the 
        second floor press office and briefing rooms. They must have an 
        appointment for access to all areas except for the cafeteria, 
        post office, banks, concessionaires, barbershop, dry cleaners 
        and the Foreign Affairs Recreation Association office and 
        basement garage. If a press representative arrives, at an 
        office uninvited, employees should advise the PA Office of 
        Press Relations at 647-2492 and DS/CIS/DO at 647-0099.
Miscellaneous Visitors
  <bullet> Vendors, delivery, construction, and repair personnel 
        require escort. Custodial personnel require escort while inside 
        office space. Employees are reminded that with few exceptions, 
        these personnel ARE NOT CLEARED.
  <bullet> If you have any questions on access control, contact DS/CIS/
        DO at (202) 647-5925 or 647-5305.

                                 ______
                                 

                        U.S. DEPARTMENT OF STATE

                        Office of the Spokesman

               [For Immediate Release--November 18, 1999]

                          Notice To The Press

            modifications to state department access policy
    On Monday, December 6, 1999 the State Department's Bureau of 
Diplomatic Security will institute the following access policy for 
members of the press.
Press Facilities
    Press representatives who do not/not have a State Department 
building pass:

  <bullet> 8 a.m.-4 p.m. Monday through Friday, except holidays--Press 
        are cleared through security at the 23rd Street lobby.

    All other times--Press are cleared through security at the C Street 
entrance and admitted by a Uniformed Protective Officer via the west 
Mezzanine staircase.

  <bullet> Press will have unescoried access to
                the Office of Press Relations (room 2109),
                the Press Briefing Room (room 2118),
                the Correspondents Room (room 2310), and
                the Mezzanine balcony (east and west sides).

    Access to any other area of the building will be granted only when 
        escorted by a State Department employee.

    Press representatives with a valid building pass:

  <bullet> 7 a.m.-7 p.m. Monday through Friday, except holidays--Press 
        may enter or exit through a turnstile at any entrance. Press 
        building pass holders have access to facilities on the second 
        floor or below (cafeteria, newsstand, barber shop, post office, 
        etc.) without escort by swiping their building pass through 
        card readers installed on doors leading to those areas. As is 
        the case under current policy, all journalists and technicians 
        who have appointments with Department officials must be 
        escorted by someone from that office to and from the meeting.
  <bullet> All other times: Building pass holders may enter or exit 
        through the turnstile on the west Mezzanine staircase.

Press Events
    The pickup point for press representatives participating in media 
events (photo opportunities, press availabilities, etc.) will be as 
follows:

  <bullet> 8 a.m.-4 p.m., Monday through Friday, except holidays--Pick-
        up point will be the 23rd Street lobby.
  <bullet> All other times--Pick-up point will be the C Street lobby.

    The collection point for media events will always be specified in 
the State recorded public schedule, available by telephoning (202) 647-
2497.

State Department Building Pass
    For details on eligibility and procedures for obtaining a State 
Department Building Pass, please call Press Officer David Denny, Office 
of Press Relations, (202) 647-2492.

                                 ______
                                 

                   United States Department of State

       bureau of diplomatic security--uniformed protection branch
Number: C92-o4
Effective Date: April 3, 1992
Distribution: Appropriate Posts
Originating Unit: DS/PRD/DF
Expiration Date: May 3, 1992

                                Circular

Subject:  escort of bulgarian diplomats no longer required
    Effective immediately Bulgarian Diplomats no longer require an 
escort while in DOS facilities.
    They will be processed the same as any other visitor. This leaves 
two countries, the Soviet Union and Romania, on the required escort 
list.
                                       Donald E. Blake, COR

                                 ______
                                 

                   United States Department of State

       bureau of diplomatic security--uniformed protection branch
Number: C92-19
Effective Date: June 24, 1992
Distribution: Appropriate Posts
Originating Unit: DS/PRD/DF
Expiration Date: June 19, 1993

                                Circular

Subject:  escort of russian and romanian diplomats no longer needed
    Effective immediately Russian and Romanian Diplomats no longer 
require an escort while in DOS Facilities.
    They will processed the same as any other visitor. This leaves no 
countries on the required escort list.
                                       Donald E. Blake, COR

    Senator Grams. Mr. Carpenter, thank you very much for your 
testimony and, again, thank you for your willingness to appear 
before the committee and take questions.
    Just some background: As we know, the United States has a 
long history of being the target of a very aggressive Soviet 
and, subsequently, Russian electronic surveillance program.
    That happened during the cold war and--and then we even 
discovered a bug in our Ambassador's office during the cold war 
in Moscow that was concealed in a wooden replica of the Great 
Seal of the United States.
    And we now know that Soviet intelligence had a remote 
control radio operating bugging device installed in the seat of 
a chair in the Senate Foreign Relations Committee meeting room 
in 1969, which operated for at least 4 years.
    We even are aware of another instance when the signal from 
a bug was being monitored from an embassy car with an antenna 
built into the windshield.
    Well, the Russians, as we know, have inherited the Soviet 
intelligence apparatus and are also putting it to use.
    So given that information, given that we know the Russians' 
modus operandi, so to speak, should we not have been more 
vigilant about the potential for this particular kind of 
attempted espionage?
    Mr. Carpenter. The answer to that question is clearly yes.
    Senator Grams. Well, that is a good answer.
    Knowing that, why do you think--and you mentioned in your 
testimony, ``Maybe because we thought the cold war was over, 
maybe we let our guard down a little bit.'' But you did mention 
the State Department budget had been cut.
    Where was it cut and by whom? Was it a congressional cut? 
Was it inside the Department, the reallocation of funds to deal 
with this type of security measures, or what were you referring 
to specifically?
    Mr. Carpenter. It is my information that those cuts were a 
combination of all the things that you mentioned.
    Senator Grams. Yes.
    Mr. Carpenter. The Department as a whole was forced to 
reduce its numbers of personnel and its programs. DS, being one 
of the Bureaus within the Department, had to take a 
corresponding cut.
    Some of the reductions that DS took, I have to be very up 
front with you, are self-induced. In other words, DS had to 
impose priorities within its own Bureau, place importance where 
it felt importance needed to be placed.
    I would have to say, counterintelligence was one of those 
areas following the cold war, that the consensus was to risk 
manage, and reductions were made.
    Senator Grams. So along with the budget cuts, of course, 
the position allocations or the positions that you said, 
personnel cuts, was, again, a part of that----
    Mr. Carpenter. Yes, sir.
    Senator Grams [continuing]. Result?
    Mr. Carpenter. Yes, sir.
    Senator Grams. November 17, 1998, the Department noticed--
or a Department notice stated that ``All visitors, with the 
exception of active U.S. Government agency personnel who 
display proper photo-identification, shall be escorted at all 
times.''
    Now, this mandate was rescinded, as we have noted, just 6 
days later. Having all visitors escorted seems to be common 
sense and a prudent measure to take. Now, again, you mentioned 
in your statement that it was revoked because it did not go 
through the process in the bureaucracy.
    If that is true, why did it take some 10 months to get it 
reinstated?
    Mr. Carpenter. It was----
    Senator Grams. Well, first, was it revoked because of some 
complaints by agency personnel? Was that the reason it was 
revoked? And then the question is: Why did it take so long to 
get it reinstated?
    Mr. Carpenter. Well, let me go back to the first part of 
your question. I think this was a common sense approach, and a 
prudent step to take.
    I had been at the Department for 3 months at the time that 
this brilliant idea occurred to me. I was told that this could 
be done relatively easily. I asked my staff to make sure that 
the proper vetting had been done.
    In other words, the State Department has never had an 
escort policy in its history.
    Senator Grams. Yes.
    Mr. Carpenter. This was a radical change to the way it 
operated domestically. Overseas, we have a totally different 
set of standards that are adhered to. But domestically, there 
never had been a complete escort policy at the Department.
    The day that the escort policy was issued and being 
distributed, I was called to answer why this had not been fully 
vetted in the Department, and why the geographic Bureaus who 
are, quite frankly, a majority of the personnel in the State 
Department, were not aware of this. And they would be the ones 
that, quite frankly, predominantly would have to bear the brunt 
of this escorting.
    I was a little bit shocked, and I must say I will take some 
responsibility for the fact that this had not been vetted by 
those whom, it is my understanding then and it is my 
understanding now, would be the recipients of the majority of 
the work. So we rescinded it. And we went back to the drawing 
board to get a better program together.
    Questions such as ``How are the press to be handled? How 
are special visitors and how were diplomats to be handled? How 
are contractors to be handled? How are the cleaning crews to be 
handled,'' had not been, to my satisfaction, properly vetted. 
That process unfortunately took about 9 months before we had 
convinced the Department of the necessity for it.
    The Department signed on to it. There was some grumbling as 
one could imagine in any type of change of this degree.
    But I must say, after it went into effect in August, it has 
gone very, very smoothly with very few problems and has 
received the collective support of the entire Department.
    Senator Grams. Now, you have not mentioned who complained. 
I do not know if you want to say that. But the question is--I--
I would have maybe--why did they complain again, maybe just 
because of the change, inconvenience? Was that basically the 
reason?
    Mr. Carpenter. I think ``inconvenience'' would not be the 
right word. I think that the sense was that due to the number 
of visitors to the Department, which we estimate to be about 
1,000 a day, that the geographic Bureaus who, in most 
instances, may have only had one secretary to answer phones, 
would have to have her leave her phone duties, go down and act 
as an escort on a frequent basis.
    Senator Grams. Yes.
    Mr. Carpenter. And that just seemed unworkable. We looked 
at other alternatives, such as hiring escorts. All these had 
financial obligations.
    We felt very strongly that we could do this without 
incurring additional financial responsibilities, because we did 
not have the finances to put toward this.
    Senator Grams. If it was not for this incident to, say, 
maybe jar this loose, do you think there would still have been 
opposition, you know, to the escort?
    In other words, you know, it was--would it have not--would 
it have been in position right now if it had not been for the 
problem we are addressing here today, and that is the Russian 
bug that was found in the seventh-floor conference room?
    Mr. Carpenter. It is my belief that once properly vetted 
within the Department, this escort policy would have been 
initiated absent this bug.
    Senator Grams. Yes. OK.
    Mr. Carpenter. And I think the proof positive of that is 
the escort policy went into effect prior to the bug being 
discovered.
    Senator Grams. Yes. Now, has the State Department's failure 
to put in place an escort policy before the August 1999 date 
made it more difficult to determine who planted the bug for 
Russian intelligence and how long it had been there?
    And, as you said, there had been no policy up until--up 
until this time; so we are not here trying to point fingers at 
anybody, but basically to find out how can we better protect 
national security.
    So was it more difficult to determine, as I mentioned, who 
planted this bug because we do not have this policy in place?
    Mr. Carpenter. Clearly, the field of suspects is much wider 
when you do not have an escort policy. So the answer to your 
question is: Of course, it would have potentially made the 
investigation easier, or at least narrowed the field of 
possible suspects.
    Senator Grams. Mr. Carpenter, we talked about contractors 
and the access of contractors to the building, commercial 
contractors who do work throughout the State Department, even 
though they are not technically Government employees.
    Can you explain for us exactly what the policy is regarding 
security clearances for these workers?
    Mr. Carpenter. I will try, Mr. Chairman.
    Senator Grams. OK.
    Mr. Carpenter. It is a little bit uneven as you go through 
different categories. All personnel having permanent passes to 
the Department of State, working on classified systems have 
full background investigations up to the ``top secret'' level.
    Certain contractors and temporary fill-ins for the day do 
not have a background investigation.
    If the duration of their duties at the State Department 
allows us to run name checks and those types of simpler police 
checks, we do that. But if you are not working on classified 
projects and you do not need access to classified areas of the 
Department, there are no background checks done routinely.
    Senator Grams. Is that going to change?
    Mr. Carpenter. We are examining this to see if it needs to 
be changed.
    The the procedures that we go through to clear people, I 
believe, need to be reviewed.
    And I am in the process of working with my former 
colleagues at the Secret Service and the highest levels at the 
FBI and CIA to put together a team to come in and look at our 
programs and see what can be done to answer some of the 
questions that I personally have about our policies and 
procedures.
    Senator Grams. Contractors are performing some very 
sensitive work on computer hardware, even software, inside the 
building. Why are they not required to go through a security 
clearance?
    Mr. Carpenter. A contractor working on a classified project 
would be required to have a security clearance.
    Senator Grams. OK.
    Mr. Carpenter. A contractor working on a non-classified 
system or software would not, as of now, require a security 
clearance.
    Senator Grams. OK.
    Mr. Carpenter. We are looking at the wisdom of that 
procedure.
    Senator Grams. Now, given that we are discussing a Russian 
spy scandal, is it possible under the current practice for 
Russian nationals to have been given access to computers at the 
State Department?
    Mr. Carpenter. Yes, it is, to an unclassified system. They 
would not be allowed access to classified areas, as of August 
1999, without being escorted.
    Senator Grams. OK. Should the DS be informed of all the 
work, which is being done in the location of the contractor 
personnel which is doing that work? Should you have that kind 
of information ahead of time? And, again, at least you have got 
a trail then of information.
    Mr. Carpenter. It certainly makes sense that DS be included 
in that chain.
    Senator Grams. Are you right now or are you not?
    Mr. Carpenter. It appears that it is a little bit uneven.
    Senator Grams. Yes. Yes.
    Mr. Carpenter. It has been uneven over the years. A 
majority of the time we are, but there are clearly times when 
we have not been in that chain.
    Senator Grams. Now, I was a former news anchor in the media 
for many years. And I am sympathetic to the need for access by 
the press, of course.
    But I understand the security problems by--created by 
allowing the press corps access to all public areas in the 
State Department building as well. And I do not know if we can 
include foreign press in this as well, but we do know that the 
agents of foreign governments use press credentials as cover 
for their activities.
    Are you considering any changes at all in the regulations 
governing press access? I know you mentioned a little bit about 
this in your statement, but is that another area of 
consideration?
    Mr. Carpenter. With the introduction of the escort policy, 
press do not walk around unescorted within the building into 
any areas other than those areas designated for them to be in, 
that is their own specific press areas, the cafeterias, barber 
shop and other public areas of the Department. Any other time 
they have to be escorted.
    To be very candid, we are looking at the wisdom of the 
process by which we credential foreign press to see if we need 
to revise it.
    Senator Grams. OK. Dealing with State Department personnel, 
there are concerns that a foreign agent could gain access to 
the State Department with a State Department badge.
    The current system has no biometrics such as the thumb 
print or photograph recognition. In this area, has there been 
any progress in updating the I.D. system that the State 
Department is using, or are there plans to update it in the 
near future?
    Mr. Carpenter. There are clearly plans to update it. We 
clearly need a security system redundant to the current system 
that exists, whether that be biometrics, pin number or some 
other technological improvement.
    And as part of the study that I am asking the other 
agencies to participate in, we are seeking the best assessment 
of what type of equipment we do need.
    Senator Grams. What would be a timetable on this?
    Mr. Carpenter. We hope to have that recommendation within 
90 days.
    Senator Grams. And then implementation?
    Mr. Carpenter. Implementation as quickly as funds to 
procure that equipment can be obtained.
    Senator Grams. I was going to say that I imagine it depends 
on budgeting.
    Mr. Carpenter. Yes, sir.
    Senator Grams. Unlike Senate personnel, the possessions of 
State Department employees--their possessions like briefcases, 
suitcases and purses, they do not have to be, I understand, x 
rayed when they enter the building right now. Is that correct?
    Mr. Carpenter. Employees do not, that is true.
    Senator Grams. That does not make sense from a security 
standpoint. Are you looking to change that policy as well?
    Mr. Carpenter. We, as recently as yesterday, had an in-
depth discussion about this. While there are security 
adaptations and enhancements I would like to make, the 
atmosphere and the environment of that building make it very 
difficult. The physical setup of that building also makes that 
a very difficult undertaking.
    And, as I alluded to it earlier, any sort of security 
enhancement is going to require consultations, because it could 
be, in some instances, very, very confining, to say the least, 
and cause huge backups at a very busy facility.
    But we are undertaking that and we will have a decision on 
it in 90 days.
    Senator Grams. What are the number of visitors a day to the 
State--to the building? I mean, talking about personnel, 
workers, just visitors.
    Mr. Carpenter. Well, there are 8,500 personnel, and about 
1,000 visitors a day.
    Add that to construction workers and other contracting, and 
the number easily would exceed 10,000 people that pass through 
the doors of the State Department daily.
    Senator Grams. So when you are talking about the number of 
people that needed to be escorted, would you say that is maybe 
around 1,000? That is a high number. I mean, that is a lot of 
people.
    Mr. Carpenter. The number, actually, comes down to about 
300 a day who require escorts.
    Senator Grams. OK.
    Mr. Carpenter. That is our best estimate at this point 
since employees of other agencies visiting the building do not 
require escorts.
    Senator Grams. And would they be mainly just visitors or 
people that are on business that would need to be escorted 
because of lack of credentials, or a mixture?
    Mr. Carpenter. A mixture.
    Senator Grams. Moving on to the damage assessment itself 
and the Bureau of Oceans and International Environmental and 
Scientific Affairs, the conference room--it would be a lot 
easier to refer to it as the OES as we did.
    But your ability to conduct an accurate damage assessment 
appears to have been hampered, I think, by a lack of respect 
for security procedures by the State Department personnel.
    What is the policy regarding keeping log-in books for the 
conference rooms, and does the OES Bureau have a log of all the 
meetings which have taken place in that room that are of 
concern to the dates that you have?
    Mr. Carpenter. First, let me respond to your first 
statement. We found that since the arrest on December 8 of Mr. 
Gusev, the Department employees that had come in contact with 
the OES conference room or had had meetings in the conference 
room over more than the past year, have been very forthcoming.
    Senator Grams. Yes.
    Mr. Carpenter. Other individuals who have had no contact 
with the OES conference room since the bugging have come 
forward with leads about other suspicious activities they have 
seen in the Department.
    So I would suggest that the Department has been extremely 
forthcoming and cooperative in an effort to find out who, in 
fact, put this in place.
    It should be understood that the conference room in 
question, the OES conference room, is not what we would 
consider a secure conference room.
    Senator Grams. Yes.
    Mr. Carpenter. It is simply one of the many conference 
rooms in the Department of State that various and sundry people 
use. The log that we are looking at goes back to January 1999.
    It was incomplete in that it did not list every person that 
has gone into that room, nor does it show after-hours enterings 
of the room. The log is only an attempt at scheduling meetings 
in the room. It is a scheduling device versus an accountability 
device.
    Now, this has to be compared to other conference rooms in 
the building designated for the discussions of classified 
information, top secret and SCI information, for which very 
complete logs are kept.
    Senator Grams. Yes.
    Mr. Carpenter. Access is not through a badge swipe system.
    Senator Grams. So you said this was an unclassified area?
    Mr. Carpenter. It is a non-secured conference room.
    Senator Grams. Non-secure.
    Mr. Carpenter. It is also an unclassified----
    Senator Grams. Yes, non-secure area.
    Mr. Carpenter. Yes. Yes, sir.
    Senator Grams. But recognizing that, could there have been 
any chance that there was ever classified information that was 
discussed in the room, just because of convenience, that it 
was, you know, in an area where people could get into, or the 
logs?
    So even though it was a non-secure, could there have been 
or was there, to your knowledge, any classified information 
discussed in the room?
    Mr. Carpenter. There was classified information and 
sensitive information discussed but none was at the top secret 
or SCI level.
    Senator Grams. All right. Now, there were a lot of jokes 
about the poor Russians who had to listen to the boring 
meetings of the OES, and that is nothing against the good 
people who work there or the meetings they had.
    But was it not also used by other Bureaus, such as 
Intelligence and Research? Now, again, you said not above a 
certain level.
    Mr. Carpenter. Yes. Records show that INR had used the 
conference room one time for a briefing, at which no 
information at the top secret and SCI level was discussed.
    Senator Grams. But again, getting back to the fact that 
this conference room was very easy to access, the log books 
were incomplete, I understand that it was even used by the 
seventh floor cleaning crew on break.
    Does not all this make it more difficult to assess the 
damage or damages assessment, or whatever you----
    Mr. Carpenter. Yes. Yes, it does.
    Senator Grams. So this makes the whole investigation a 
little bit incomplete?
    Mr. Carpenter. It complicates it.
    Senator Grams. Complicates it.
    Mr. Carpenter. Yes.
    Senator Grams. Budget cuts, to go back, I think again, to 
what you alluded to in your opening statement: From 1993 to 
1995, diplomatic security asked the State Department for funds, 
was refused those funds necessary for an active technical 
countermeasures program.
    Now, knowing this, do you believe that the Russian 
activities would have been detected earlier had the State 
Department been able to fund the request of the DS at that 
time?
    Mr. Carpenter. That is a very hard question to answer, Mr. 
Chairman. I would suggest that the more complete the 
counterintelligence division of DS was, the more personnel they 
had to devote to their duties, the less vulnerable we would 
have been.
    But there are so many factors that go into a strong 
counterintelligence program, including the physical design of 
the building and security policies and procedures, that a much 
stronger counterintelligence unit in and of itself would not 
have been sufficient. I think that is the crux of my statement.
    Senator Grams. Yes.
    Mr. Carpenter. Across the board, we are lacking and forced 
to make tradeoffs, like many other parts of the Department, I 
might add.
    The stronger the program, clearly the less likely it is 
that this would have happened. But at the same time, in the 
absence of an escort policy, even the strongest of 
counterintelligence program would have had difficulty.
    Senator Grams. I see you brought some charts. Is there a 
way you can maybe give us a better idea of exactly where it 
happened----
    Mr. Carpenter. Certainly.
    Senator Grams [continuing]. Where the Russian involved 
would stake out the building, so to speak, and the number of 
times during the week that he would appear?
    Mr. Carpenter. I would be glad to, sir.
    The first chart is an aerial overview of the State 
Department. The lower part of the screen, is the C Street side 
of the Department.
    Senator Grams. Yes.
    Mr. Carpenter. D Street is----
    Senator Grams. Is this the main entrance normally, down 
here? [Indicating]
    Mr. Carpenter. The main entrance is----
    Senator Grams. Right there, yes.
    Mr. Carpenter. It is right there, yes.
    Senator Grams. OK.
    Mr. Carpenter. The park is there. The area outlined in 
yellow is State annex three. That is Virginia Avenue running 
along that direction.
    Senator Grams. Yes.
    Mr. Carpenter. Below it, outlined in blue is the park in 
which Mr. Gusev had been sitting on a bench and observing.
    And let me go to the conference room on the seventh floor; 
the OES conference room was right in that area. [Indicating] As 
you can see, the Virginia Avenue side is where he parked his 
car to monitor the device in the room.
    All had to be in line of sight of the seventh floor 
conference room.
    Senator Grams. That is the way the signal was being 
transmitted; in other words, it had to be a line of sight in 
order to receive the signal?
    Mr. Carpenter. Yes, it did. Yes, it did.
    Senator Grams. OK.
    Mr. Carpenter. If you would go to the next chart.
    Thank you.
    This is a schematic diagram of the seventh floor at main 
State. Again, this is D Street side and the red indicates the 
OES conference room.
    To try to dispel rumors that this conference room was 
adjacent to or even in the close proximity to the Secretary's 
suite, we have outlined in blue the Secretary's suite. This is 
a city block away from where the bugging took place.
    Next are two pictures. First is what you see upon walking 
into the OES conference room. Do not be alarmed by the 
equipment there. That was set up for another conference. But 
this is walking in the door.
    The top shows you this is not a large conference room.
    Senator Grams. Yes.
    Mr. Carpenter. I draw your attention to the plant, the 
curtain and that window there. This is the D Street side of the 
building.
    Senator Grams. Yes.
    Mr. Carpenter. That is----
    [Pause]
    Mr. Carpenter. The plant in the upper picture, and the 
drapes were concealing the chair molding. And I have with me a 
sample of this type of molding. This is not the molding the 
device was secreted in, but this was the type of board that was 
used to plant the device.
    Senator Grams. Yes.
    Mr. Carpenter. The bottom picture, again, shows a like 
piece of chair rail. That was the area in which it was found by 
our countermeasures sweep.
    Senator Grams. So there had to be more than one visit to 
that room in order to map out the strategy and how the device 
was going to be planted, measurements, and then access to be 
able to install it and remove it. So that had to mean, you 
know, access without anybody else present. So----
    Mr. Carpenter. Correct. That is our assumption----
    Senator Grams. OK.
    Mr. Carpenter [continuing]. That this was done on multiple 
visits to the OES conference room.
    Senator Grams. OK.
    Mr. Carpenter. And this simply shows more clearly the view 
looking out of the OES conference room onto the Virginia 
Avenue, D Street side. The top picture is looking slightly to 
the right.
    Senator Grams. So we are inside the building now, inside 
the conference room looking out on Virginia Avenue?
    Mr. Carpenter. We are inside the OES conference room 
looking out at the park back where the red light is.
    Senator Grams. Yes.
    Mr. Carpenter. That is where Gusev did a lot of his 
relaxing, and his vehicle was parked in and around this area.
    And the lower diagram is Virginia Avenue. And that is State 
annex three that we had outlined on the first diagram.
    Senator Grams. Yes.
    Mr. Carpenter. And he also chose to park his vehicle, space 
available, along there. [Indicating] And once we realized what 
he was doing, space was always available.
    Senator Grams. In order to oversee his activities?
    Mr. Carpenter. To oversee his activities.
    Senator Grams. Yes. Getting back to the issue then of the 
OES conference room, just one thing I would like to clear up, 
one point for the record: If the OES conference room is not 
secure, looking back at it, should any classified information 
have been discussed--whether it was confidential or secret, any 
kind of level information, should that room have been used for 
that?
    Mr. Carpenter. Clearly, there needs to be a greater 
awareness of discussing any type of secure information outside 
designated secure areas.
    Senator Grams. Yes.
    Mr. Carpenter. That is a part of our review. Just to put 
this in context, secure information, classified information is 
discussed daily in my office. It is not a designated SCIF. We 
are moving to have my conference room made into a SCIF, so that 
we are not victimized.
    I think the escort policy goes a long way to ensure that we 
are not victimized. However, we do clearly have to take a 
better look at what areas should be made available for the 
discussion of classified information.
    Senator Grams. Now, Mr. Carpenter, while you are still 
conducting a damage assessment--I am assuming it is still 
ongoing.
    Mr. Carpenter. Yes, it is, sir.
    Senator Grams. The preliminary word seems to be that no 
highly classified information was lost, is that correct? We 
could assume that?
    Mr. Carpenter. Yes, we can.
    Senator Grams. Is it fair to say that we barely dodged a 
bullet, perhaps?
    Mr. Carpenter. I think that is a fair assessment, yes, sir.
    Senator Grams. And, again, you know, talking about whether 
any information should be discussed in this conference room or 
not, I mean, that is--you cannot have information or knowledge 
of every meeting going on, but this would be a policy that you 
think should be instituted, and everybody is aware of, and 
areas of the building in which those conversations should be 
conducted.
    Mr. Carpenter. Yes.
    Senator Grams. So, again, it is----
    Mr. Carpenter. But I must add, Mr. Chairman, I think that 
it has been a universally held opinion by people at State that 
our vulnerabilities in the United States are not what they are 
in the overseas arena. So there has been a much more relaxed 
attitude about this. Clearly, this serves notice that that 
needs to be re-thought.
    Senator Grams. Yes.
    Mr. Carpenter. And I am confident that there are many in 
the Department who are rethinking that. And their posture has 
become much more attuned and aggressive about where they 
discuss classified information. Constantly, I am asked by 
people, ``Where can we go to discuss this information.''
    So this has sent a positive message. I mentioned a couple 
of benefits. That is, clearly, the level of awareness about the 
potential threats brought about by this bugging have had a 
positive impact on the Foreign Service in general, and on the 
employees of the United States State Department.
    Senator Grams. So not just at this building, but at other 
sites as well?
    Mr. Carpenter. Not at just this building, but throughout 
the world, quite frankly.
    Senator Grams. Now, if I overstate this, you can correct me 
on this. But the access control policy at the State Department 
seems to have been a matter of confrontation between the 
foreign policy establishment at State and the DS for a number 
of years, even before your arrival.
    Do you believe that the culture at the State Department 
inhibits your ability to provide this secure environment?
    Mr. Carpenter. I think that is an excellent question. I 
think that is at the crux of what, quite frankly, has brought 
us here. There is always going to be a divide. There has always 
been a divide, not just at State, but throughout the society--
--
    Senator Grams. Yes.
    Mr. Carpenter [continuing]. Between those persons who want 
a work environment to be open, friendly and inviting, and the 
security elements who want to secure it.
    Senator Grams. Yes.
    Mr. Carpenter. The irony of that is: Overseas, that gap is 
almost non-existent. There, policies and procedures are well 
understood. The threat is well understood.
    And I think we have excellent programs overseas, programs 
and policies. Those programs and policies have not translated 
well domestically where, absent incidents of this nature, we 
clearly have reduced our awareness.
    The culture at State Department is, quite frankly, in the 
overseas arena, very aggressive toward security. It is very 
responsive. Like I say, I have only been at the Department a 
year and a half, but I have been impressed by that 
aggressiveness in the overseas arena.
    I must say that that same attitude is starting to form 
since this bugging in the Department. But prior to having a 
visual aid or a guide or an incident like this, it was a very 
difficult sell, because such incidents have not been occurring 
regularly. The threat of this was rated to be low.
    Senator Grams. Yes.
    Mr. Carpenter. I would suggest ``low'' does not mean 
``no.'' ``Low'' means ``low,'' and you have to take appropriate 
measures. I think our baseline may have been below ``low.''
    I would have to say in my personal experience, and I have 
been there since bombings and that type of activity at State, 
that there has been a very solid response on the Department of 
State toward these issues.
    They have asked questions. But someone questioning me or 
not agreeing with my suggestions for security does not, in and 
of itself, mean that they are anti-security.
    That simply means they have got questions about it. I need 
to be a better salesman. I need to market my idea. And I did 
market it throughout the building. That is laborious. That is 
frustrating. But that is the way it has to be done.
    Senator Grams. Yes.
    Mr. Carpenter. We are growing with this. I have had 
tremendous support from the foreign service community in 
getting this done.
    We have had some setbacks. We have had to go back and do 
our homework a little bit better, but collectively, I think the 
State Department is much better than it was when I came a year 
and a half ago. And a year and a half from now, it will be much 
better than it is today.
    Senator Grams. I want to go back also. You said the 
counterintelligence, I believe you mentioned this, portion of 
DS is about a third of the size that it was at the end of the 
cold war. Is that correct?
    Mr. Carpenter. That----
    Senator Grams. And in that context, do you think that the 
counterintelligence agency has been undervalued then by the 
State Department over these years, cold war over?
    Mr. Carpenter. ``Undervalued'' may not be the right word, 
but I think on a risk management continuum, when you look at 
the risk, it was rated at low. It received a proportionate 
amount of support which was low.
    Senator Grams. Yes.
    Mr. Carpenter. And that caused us to be behind where we 
would like to be, where we once were.
    Senator Grams. To go back again and talk about maybe this 
division or this line that might be between State and DS, Booz, 
Allen and Hamilton, as you know, a consulting firm, recently 
conducted an audit on the State Department's ability to respond 
to both terrorist and counterintelligence threats.
    And it has been reported that one of the recommendations 
made in the report was to elevate the role of the Bureau of 
Diplomatic Security.
    Do you believe that the role of DS should be elevated, and 
that DS should report directly to the Secretary of State? Would 
that be a step in the direction of ensuring greater security? 
Would you advocate it?
    Mr. Carpenter. I was and am supportive of the 
recommendations made by the Booz, Allen and Hamilton study.
    I currently have an informal reporting relationship to the 
Secretary, in that I brief her every morning relative to 
security problems and hot spots around the world, issues that 
are important for her to know about.
    Senator Grams. Yes.
    Mr. Carpenter. But, again, that is informal. I believe that 
that should be formalized. And it is currently under study for 
decision by the Secretary as to whether to formalize that 
relationship and what form that formalizing would take.
    Senator Grams. So there has been no decision made as of 
yet. It is still a consideration or a recommendation?
    Mr. Carpenter. It has moved from a recommendation so that 
the decisionmaking is, we think, forthcoming, relatively soon.
    Senator Grams. OK. In the near future?
    Mr. Carpenter. In the near future, yes, sir.
    Senator Grams. All right. And, probably, my last question 
then, Mr. Carpenter, is kind of an open-ended question, and 
that is: What changes need to be made to enhance the ability of 
DS to engage in security and counterintelligence activities?
    If you had the ability to make those requests, what would 
be probably a couple of top priorities you would have?
    Mr. Carpenter. Mr. Chairman, I would suggest that for 
everyone that comes before you that the solution to their 
problem is, ``I need more people. I need more finances,'' and 
quite frankly I----
    Senator Grams. You have been in my office then. That is 
what I----
    Mr. Carpenter. I am no different than the rest.
    I would only say this: In my 28 years in the security and 
intelligence field, I have never seen a department where people 
have been so tired, where they are burning the candle literally 
at both ends to try to meet the challenges.
    I would be less than responsive to their needs if I did not 
say that we do need more personnel.
    Senator Grams. Yes.
    Mr. Carpenter. I do believe that the President and the 
Secretary's budget that is up here addresses that. And we are 
starting to see the response that we need. And quite frankly I 
applaud that.
    I think this is a tremendous step in the right direction. 
It acknowledges the problem and is an attempt at satisfying it. 
Within the Diplomatic Security Service, we have the expertise.
    Senator Grams. Yes.
    Mr. Carpenter. We do. We do not need to turn to other 
agencies for this expertise. We simply do not have the 
personnel to allocate out appropriately.
    Senator Grams. Yes.
    Mr. Carpenter. We have additional needs for finances for 
some technical enhancements of the most sensitive nature that 
are available out there. We simply, at this time, do not have 
the finances to go procure those, install them, and be, quite 
frankly, cost effective.
    One of our goals, both after the bombings in East Africa 
and after the bugging, is to see that the taxpayers are getting 
the best bang for the buck.
    And it takes awhile to sort through all of the options to 
do that, and we would hope to continue to work with you and 
this committee to satisfy that and make available any and all 
information that you might need to support us in that effort.
    Senator Grams. OK. I just wanted to make a comment here 
that I think a lot of your efforts and activities in security 
might be underappreciated.
    Most of the time, you are kind of the silent group there, 
that as long as you do your job well, we do not hear anything. 
But, whether it is the security at State, whether it is 
security in our foreign embassies, whether it is security in 
our office buildings throughout the Capitol, but until we have 
the bombings like in East Africa, until we have the shooting 
deaths of two of our officers here at the Capitol, or even, the 
incident here at the State Department before this was really 
brought to light, so I know we appreciate that, as employees 
here, you try to make that security as least painful as 
possible in order to facilitate the flow of people in and out 
of the building.
    We appreciate the work you do. And, again, it was my 
pleasure to have you here today and to testify and offer us 
this information.
    And I would also like to say that we had to steal one of 
your people from State to be my chief of staff here recently. 
Gary Russell, who worked for the State Department for a number 
of years is now working in my office. And so any time you want 
to come and frisk him and pat him down, that would be fine.
    Mr. Carpenter. I would be glad to, Mr. Chairman.
    Senator Grams. Thank you very much, Mr. Carpenter, for 
being here. I appreciate your testimony. Thank you again.
    Mr. Carpenter. Thank you, Mr. Chairman.
    Senator Grams. This hearing is complete.
    [Whereupon, at 3:35 p.m., the hearing was adjourned.]

                                   - 

</pre></body></html>
